                  

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 



                      EPA Can Further
                      Reduce Space in
                      Under-Utilized Facilities
                      Report No. 13-P-0162           February 20, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Marcia Hirt-Reigeluth
                                                   Jennifer Hutkoff
                                                   Yeon Kim
                                                   Heather Layne
                                                   Mike Davis




Abbreviations

CFR           Code of Federal Regulations
EPA           U.S. Environmental Protection Agency
FMSD          Facilities Management and Services Division
GSA           U.S. General Services Administration
HQ            Headquarters
OARM          Office of Administration and Resources Management
OIG           Office of Inspector General
SLATE         Strategic Lease and Asset Tracking Enterprise
USF           Usable Square Feet


Cover photos:	 EPA facilities, from left: the EPA Region 5 Ralph H. Metcalfe Federal
               Building, Chicago, Illinois; and the EPA Region 1 John W. McCormack
               Federal Building, Boston, Massachusetts. (EPA photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                                13-P-0162
                                                                                                      February 20, 2013
                       Office of Inspector General


                       At a Glance

Why We Did This Review                 EPA Can Further Reduce Space in
We sought to determine to what         Under-Utilized Facilities
extent the U.S. Environmental
Protection Agency’s (EPA’s)             What We Found
efforts to reduce under-utilized or
unneeded property resulted in cost     Although EPA has been releasing unneeded space since 2007, it continues to
savings. The February 2004             have under-utilized space. The U.S. General Services Administration (GSA)
Executive Order 13327, Federal         owns or leases facilities for EPA use. At 13 of the 16 facilities reviewed, we
Real Property Asset Management,        estimated that EPA had 433,336 square feet of under-utilized space as of
promotes efficient and economical      February 2012. EPA is limited in what type of space it can release back to
use of federal real property assets    GSA before a lease expires. Space can only be released if it is marketable;
and assures management                 configuration issues and the cost to relocate employees can pose problems.
accountability for implementing        If all under-utilized space in our sample was marketable, we estimate EPA
federal real property management       could save up to $21.6 million annually by releasing under-utilized space.
reforms such as the development        Also, EPA does not have a policy for determining when it should be housing
and implementation of agency           contractors on-site in its facilities. Contractors occupied an estimated 197,000
asset management plans. Federal        square feet in the sampled facilities. We estimated that EPA spent up to
real property is defined as any real   $9.9 million annually in housing contractors on-site at the sampled facilities.
property owned, leased, or
otherwise managed by the federal       EPA lacks accurate, current, and complete information on the number of
government. The June 2010              personnel and usable square feet (USF) in its Strategic Lease and Asset
Presidential Memorandum,               Tracking Enterprise (SLATE) system for its GSA-owned/leased offices. As of
Disposing of Unneeded Federal          April 2012, SLATE had incorrect personnel information for 13 of the 16
Real Estate, requires federal          facilities sampled (81 percent), and 5 of 16 facilities sampled (31 percent) had
agencies to eliminate excess           incorrect information on USF. SLATE recorded a net 548 more personnel than
properties and lease                   what EPA facility managers had provided for the sampled facilities and a net
arrangements that are not cost         235,918 less USF than the sampled facilities had. Additionally, the entire USF
effective.                             of 325,128 for the Region 5 Ralph H. Metcalfe building was not reported in
                                       SLATE. This occurred because updates to SLATE are sporadic and
This report addresses the              inconsistent. Inaccurate data in SLATE hamper EPA’s ability to make
following EPA Goal or                  informed decisions about managing its facilities.
Cross-Cutting Strategy:
                                        Recommendations and Planned Agency Corrective Actions
• Strengthening EPA’s Workforce
                                       We recommend that the Assistant Administrator for Administration and
  and Capabilities
                                       Resources Management assess utilization of space and relocate staff where
                                       warranted. We also recommend that the Assistant Administrator develop and
                                       enforce a policy that requires contracting staff ensure that approval for
                                       on-site contractor performance is obtained from the responsible office, and
                                       require that personnel information for each facility be consistently tracked and
                                       updated in the appropriate EPA systems. The Agency concurred with all of the
For further information, contact
                                       recommendations and proposed revised language, which we incorporated
our Office of Congressional and
                                       where appropriate.
Public Affairs at (202) 566-2391.
                                        Noteworthy Achievements
The full report is at:
www.epa.gov/oig/reports/2013/          Since fiscal year 2007, EPA has saved nearly $12.9 million by reducing space
20130220-13-P-0162.pdf                 and plans to save an additional $1.8 million by fiscal year 2014, for a total of
                                       $14.7 million in savings.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                       February 20, 2013

MEMORANDUM

SUBJECT:	 EPA Can Further Reduce Space in Under-Utilized Facilities
          Report No. 13-P-0162


FROM:          Arthur A. Elkins, Jr.

TO:            Craig E. Hooks
               Assistant Administrator for Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 60 calendar days. Your response will be posted on the OIG’s public website, along
with our comments on your response. Your response should be provided in an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of
1973, as amended. If your response contains data that you do not want to be released to the
public, you should identify the data for redaction. You should include a corrective actions plan
for agreed-upon actions, including milestone dates. We have no objections to the further release
of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 heist.melissa@epa.gov; or Mike Davis,
Director for Efficiency Audits, at (513) 487-2363 or davis.michaeld@epa.gov.
EPA Can Further Reduce Space	                                                                                             13-P-0162
in Under-Utilized Facilities


                                  Table of Contents

Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ...........................................................................                3     

                Scope and Methodology ..............................................................................               3     


   2	   EPA Can Further Strive for Space Reduction..................................................                               6


                Federal Policies Seek to Reduce Space .....................................................                        6

                EPA Has Under-Utilized Space ..................................................................                    7

                EPA Does Not Have a Policy for Determining When Contractors 

                   Should Be On-Site ...............................................................................               9

                Conclusion...................................................................................................     11     

                Recommendations ......................................................................................            12 

                Agency Response and OIG Evaluation .......................................................                        12 


   3	   Personnel and Usable Square Feet Data in SLATE Not Updated Timely......                                                   14 


                SLATE and Its Data Quality and Integrity Important....................................                            14 

                Personnel Information in SLATE Not Accurate ...........................................                           15 

                USF Information in SLATE Not Accurate ....................................................                        16 

                Number of Facilities in SLATE Not Accurate...............................................                         17

                Conclusion ...................................................................................................    17 

                Recommendations ......................................................................................            17     

                Agency Response and OIG Evaluation .......................................................                        17 


   Status of Recommendations and Potential Monetary Benefits..............................                                        19




Appendices
   A	   Details on Scope and Methodology..................................................................                        20


   B	   Calculations for Under-Utilized Space and Excess Cost 

        for 16 Sampled Facilities ...................................................................................             22


   C	   Cost of Housing Contractors On-Site at 16 Sampled Facilities.....................                                         24


   D	   Agency Response to Draft Report ...................................................................                       25 


   E    	Distribution ........................................................................................................    29

                                           Chapter 1

                                            Introduction
Purpose
                 The June 2010 Presidential Memorandum, Disposing of Unneeded Federal Real
                 Estate, required federal agencies to accelerate efforts to identify and eliminate
                 excess properties. Agencies were to dispose of surplus assets, consolidate
                 facilities, and eliminate lease arrangements that were not cost effective.
                 Accordingly, we sought to determine to what extent the U.S. Environmental
                 Protection Agency’s (EPA’s) efforts to reduce under-utilized or unneeded
                 property resulted in cost savings.

Background
                 EPA facilities are comprised mostly of offices and laboratories in space owned or
                 leased by either EPA or the U.S. General Services Administration (GSA). As of
                 November 2011, the data in EPA’s Strategic Lease and Asset Tracking Enterprise
                 (SLATE) system showed that EPA occupied 170 facilities with approximately
                 10 million usable square feet (USF) of space at an annual operating cost of
                 approximately $279 million. USF is the net space occupied by a tenant for its
                 personnel and equipment use and does not include fire corridors, toilets,
                 mechanical rooms, and common building areas. SLATE also reported that these
                 facilities housed 23,498 personnel; that number includes not only EPA staff but
                 contractors, grantees, Senior Environmental Employment enrollees, and interns.
                 Details are in table 1.

Table 1: EPA facilities by legal interest            
                                       No. of
         Legal interest              facilities    Percent        Personnel          USF3           Annual cost
 EPA owned/leased                        24             14.12%       5,536          4,224,479         $45,530,093
 EPA special use agreement 1             10             5.88%           46             30,475              519,697
                      2
 GSA-owned/leased                       134             78.82%     17,909           5,793,357         232,607,245
 State government owned                    2            1.18%            7               2,050                         -
 Total                                  170         100.00%        23,498          10,050,361       $278,657,035
Source: Office of Inspector General (OIG) analysis of EPA’s data in SLATE as of November 2011.
    1 Facilities where EPA personnel are co-located with other federal agencies or have special use arrangements
       with state or local entities. 

    2 Includes offices, laboratories, warehouses, storage, child care, and parking lots.

    3 Includes rentable square feet for one facility that did not record usable square feet. 



                 EPA facilities are spread throughout the United States and Puerto Rico. Of the
                 170 facilities, approximately 59 are large facilities—greater than 20,000 USF.

                                                                                                                   1
13-P-0162

             The remainder of EPA’s facilities are smaller, special-purpose buildings and
             project offices. Each of EPA’s 10 regions has a regional office and at least one
             laboratory. Figure 1 shows details.

             Figure 1: EPA regions and major facilities
 
 
 
 
 
 
 
 
 
 
                  
                 EPA national headquarters – Washington, DC
                 Regional headquarters
                 Central regional laboratories
                 Program laboratories

             Source: EPA’s 2009 Nationwide Facilities Guide


             Initiatives to Reduce Federal Property

             The February 2004 Executive Order 13327, Federal Real Property Asset
             Management, promotes efficient and economical use of federal real property
             assets and assures management accountability for implementing federal real
             property management reforms such as the development and implementation of
             agency asset management plans. For the purpose of this executive order, federal
             real property is defined as any real property owned, leased, or otherwise managed
             by the federal government.

             The June 2010 Presidential Memorandum, Disposing of Unneeded Federal Real
             Estate, directed agencies to take immediate steps to make better use of remaining
             real property assets as measured by utilization and occupancy rates, annual
             operating costs, energy efficiency, and sustainability. Agencies were to dispose of
             surplus assets, consolidate facilities, and eliminate lease arrangements that were
             not cost effective. Agencies were directed to use innovative approaches to space
             management and alternative workplace arrangements such as telework.

             To carry out the requirements of the June 2010 memorandum, the Office of
             Management and Budget, in consultation with the GSA Administrator and the
             Federal Real Property Council, developed guidance in July 2010 for actions that
             agencies should take. The memo included agency-developed targets to achieve
             $3 billion in cost savings by the end of fiscal year 2012. These savings included
             proceeds from the sale of assets; reduced operating, maintenance, and energy


                                                                                                 2
13-P-0162

             expenses from disposals; and other space consolidation efforts, including ending
             of leases. EPA planned to contribute approximately $7.8 million as part of the
             $3 billion in savings.

             EPA’s July 2010 initial and April 2011 updated Real Property and Innovation
             Plan stated the Agency’s commitment to reducing its environmental footprint
             through efficient management of its real property portfolio. The plan stated that
             the Agency would continue to monitor and assess its facilities’ space utilization
             and take steps to reduce under-utilized space. Additionally, the Agency would
             continue to implement sustainable design, construction, alterations, and
             operations and maintenance.

             The June 2011 Presidential Executive Order 13576, Delivering an Efficient,
             Effective, and Accountable Government, calls for a government that cuts waste
             and is fully accountable to the American public. As part of this executive order,
             the President charged federal chief financial officers with increasing efforts to
             identify, execute, and report on cost savings within federal agencies.

Noteworthy Achievements
             Since fiscal year 2007, EPA has released more than 380,000 square feet of space
             with cost savings of nearly $12.9 million. EPA plans to save an additional
             $1.8 million in fiscal years 2012 through 2014 by releasing additional space, for a
             total of $14.7 million in savings (table 2).

             Table 2: EPA space released
                                Year                 Square feet released      Cost savings
               Fiscal years 2007–2011                      380,756              $12,864,283
               Planned for fiscal years 2012–2014           71,157               $1,843,112
               Total                                       451,913              $14,707,395
             Source: OIG analysis of EPA’s data.


Scope and Methodology
             We conducted this performance audit in accordance with generally accepted
             government auditing standards. Those standards require that we plan and perform
             the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
             for our findings and conclusions based on our review objectives. We believe that
             the evidence obtained provides a reasonable basis for our findings and
             conclusions based on our audit objective.

             We performed the audit from November 2011 to October 2012. We visited the
             Facilities Management and Services Division (FMSD) and Office of Acquisition
             Management in the Office of Administration and Resources Management,
             Washington, DC. We interviewed FMSD officials in headquarters (HQ) and regional

                                                                                                 3
13-P-0162

                     facility managers for 16 sampled facilities to determine their roles and
                     responsibilities and to verify information on personnel head counts and USF in
                     SLATE. We interviewed the Office of Acquisition Management Special Assistant
                     and Region 9’s contracting personnel to gain a better understanding of EPA’s
                     policies and procedures regarding allocation of space to on-site contractors.

                     We selected 16 GSA-owned/leased facilities for review, as shown in table 3.

Table 3: Sixteen Sampled Facilities
                                                                                         Usable          No. of
Region               State             City                Building Name               Square Feet     Personnel

  HQ      District of Columbia    Washington      Ariel Rios Federal Building              446,324        1,649
  HQ      District of Columbia    Washington      1310 L Street                            135,901          570
  HQ      District of Columbia    Washington      Ronald Reagan Building                   230,664        1,137
  HQ      District of Columbia    Washington      Colorado Building                          9,667           20
   1      Massachusetts           Boston          John W. McCormack Building               224,261          845
   2      New York                New York        Ted Weiss Federal Office Building        269,834          851
   2      Puerto Rico             Guaynabo        City View Plaza                           19,700           60
   3      Pennsylvania            Philadelphia    1650 Arch Street                         268,968        1,133
   5      Illinois                Chicago         Ralph H. Metcalfe Federal Building             0        1,558
   5      Michigan                Ann Arbor       National Vehicle & Fuel Emissions         59,100          235
                                                  Laboratory - Office Building
   5      Ohio                    Norwood         Norwood Professional Building             28,594           85
   6      Texas                   Dallas          Fountain Place                           239,130        1,052
   7      Kansas                  Kansas City     901 North 5th Street                     182,554          700
   9      California              San Francisco   75 Hawthorne Street                      253,919        1,160
   9      California              Los Angeles     Los Angeles Field Office                  13,813           25
   10     Washington              Seattle         Park Place Building                      154,006          669
Total                                                                                    2,536,435       11,749
Source: OIG analysis of EPA data in SLATE as of November 2011 (further details on OIG methodology in appendix A).


                     To determine applicable criteria, we reviewed the following:

                            Code of Federal Regulations (CFR), 41 CFR Part 102-79, Assignment and
                             Utilization of Space  
                            Executive Order 13327, Federal Real Property Asset Management,
                             February 2004 
                            GSA’s July 2011 report, Workspace Utilization and Allocation Benchmark 
                            Federal Real Property Council’s Guidance for Improved Asset
                             Management, December 2004  
                            Presidential Memorandum, Disposing of Unneeded Federal Real Estate,
                             June 2010  



                                                                                                              4
13-P-0162

                	 Office of Management and Budget’s July 2010 Management Procedures
                   Memorandum No. 2010-07, Development of a Real Property Cost Savings
                   and Innovation Plan 
                	 Executive Order 13576, Delivering an Efficient, Effective, and 

                   Accountable Government, June 2011
 

             Further details on the scope and methodology used—including the methodology
             to select our sample, calculate under-utilized space, and calculate cost savings—
             are in appendix A.




                                                                                                 5
13-P-0162

                                   Chapter 2

         EPA Can Further Strive for Space Reduction
             Although EPA has been releasing unneeded space since 2007, EPA continues to
             have under-utilized space. At 13 of the 16 GSA-owned/leased EPA facilities
             reviewed, we estimated that EPA had 433,336 square feet of under-utilized space
             as of February 2012. EPA is limited in what type of space it can release back to
             GSA before a lease expires. Space can only be released if it is marketable;
             configuration issues and the cost of relocating employees can pose additional
             problems. If all the under-utilized space in our sample were marketable, we
             estimate EPA could save up to $21.6 million annually by releasing under-utilized
             space. Also, EPA does not have a policy for determining when it should be
             housing contractors on-site in its facilities. Contractors occupied an estimated
             197,000 usable square feet in the sampled facilities. We estimated that EPA spent
             at least $5.8 million and up to $9.9 million annually in housing contractors on-site
             at the sampled facilities.

Federal Policies Seek to Reduce Space

             The June 2010 Presidential Memorandum, Disposing of Unneeded Federal Real
             Estate, required:

                	 Federal agencies to take immediate steps to make better use of remaining
                   real property assets, as measured by utilization and occupancy rates and
                   annual operating costs.

                	 To the extent permitted by law, agencies dispose of surplus assets,
                   eliminate lease arrangements that are not cost effective, pursue
                   consolidation opportunities within and across agencies in common asset
                   types, increase occupancy rates in current facilities through innovative
                   approaches to space management and alternative workplace arrangements
                   such as telework, and identify offsetting reductions in inventory when new
                   space is acquired.

             Assignment and Utilization of Space, 41 CFR Part 102-79, states:

                    An Executive agency must promote maximum utilization of
                    Federal workspace, consistent with mission requirements, to
                    maximize its value to the Government. 41 CFR §102-79.10.

                    Executive agencies must promote the optimum use of space for
                    each assignment at an economical cost to the Government, provide
                    quality workspace that is delivered and occupied in a timely


                                                                                                6
13-P-0162

                     manner, and assign space based on mission requirements. 41 CFR
                     §102-79.20.

EPA Has Under-Utilized Space

             EPA planned to save $7.8 million as part of the federal government’s efforts to
             reduce space to comply with the June 2010 Presidential Memorandum. Since
             fiscal year 2007, EPA has released over 380,000 square feet of space with a
             savings of nearly $13 million, and plans to save an additional $1.8 million in
             fiscal years 2012 through 2014 (see table 2, chapter 1). Nonetheless, despite
             EPA’s efforts, at 13 of the 16 EPA facilities in our sample of GSA-owned/leased
             facilities, we estimated that EPA had 433,336 square feet of under-utilized space
             as of February 2012. We estimated the annual operating cost of this under-utilized
             space to be approximately $21.6 million annually. A breakdown is in table 4 and
             further details are in appendix B.

             Table 4: Under-utilized space and annual costs for 13 facilities using 210 USF per
             person
                                                           Total under-utilized        Excess annual
                  Location and building name                      space                operating cost
              HQ-Ariel Rios Federal Building                     100,589                 $5,664,167
              R 2-Ted Weiss Federal Building                      64,676                  5,274,975
              R 1-John W. McCormack Building                      78,064                  4,350,507
              R 7-901 North 5th Street                            49,849                  1,941,619
              R 5-Ralph H. Metcalfe Federal Building              33,360                  1,336,402
              R 3-1650 Arch Street                                41,192                  1,112,184
              R 10-Park Place Building                            10,275                    448,812
              R 2-City View Plaza, Puerto Rico                     6,489                    393,169
              HQ-Colorado Building                                 6,103                    345,674
              R 6-Fountain Place                                  11,924                    245,754
              R 9-Los Angeles Field Office                         7,830                    183,770
              HQ-310 L Street                                     18,500                    182,595
              R 5-Norwood Professional Building                    4,485                     96,966
              Total                                              433,336                $21,576,594
             Source: OIG analysis of EPA data provided by FMSD and regional facility managers as of
             February 2012.


             GSA’s July 2011 report, Workspace Utilization and Allocation Benchmark,
             recommended a federal benchmark of 190 USF per person. GSA staff stated that,
             in determining the benchmark, they included only office or cubicle areas and a
             portion of shared space such as conference rooms and hall space. Also, GSA’s
             July 2011 report further states that the average space allocated could be reduced
             to only 60 square feet in the next 5 years. In response to our draft report, the
             Agency stated that “the GSA document hypothesises (sic) that the 60 square feet
             could be achieved only through extensive use of alternative workspace
             arrangements, such as hoteling, home office and teleworking on a fulltime basis.
             The EPA’s current policy limits telework to no more than two days per week and


                                                                                                        7
13-P-0162

             would therefore have to be modified. Such a significant change has already been
             the subject of extensive negotiation and delay. Hence, at this time, the EPA does
             not recognize that the average office space can be reduced to 60 square feet in
             upcoming years.” We recognize that the 60 square feet relates to alternative
             workspace arrangements for teleworking employees. However, as the Agency has
             already started to move toward enhanced telework in Regions 7 and 9 that allows
             employees to telework more than 2 days per week, this option could become a
             viable option.

             In determining EPA’s under-utilized space, we used EPA’s internal standard of
             210 USF per person as opposed to GSA’s 190 USF because EPA office spaces
             include a variety of support spaces that GSA does not include in its 190 USF
             benchmark. These support spaces include areas for conferences, copying, public
             information, computers, library, filing, storage, mail and stock, and an employee
             lounge. We decided to use 210 USF since EPA tracks all of the support space that
             GSA excludes from its benchmark when computing USF, and since FMSD does
             not readily track the excluded GSA support space. We believe that applying
             210 USF per person for calculating space utilization is the generalized and
             conservative workspace average and demonstrates whether EPA’s facilities are
             under-utilized. EPA’s 2011 draft New Mobile Work Space Design Guidelines
             require a typical work station to be up to 60 USF and a telework station up to
             30 USF per person not including support spaces. In response to the draft report,
             the Agency stated that the guideline numbers of 60 and 30 USF are not considered
             reductions from the 210 square feet per person number, which incorporates
             required space outside the actual workstation for circulation, filing, conferencing,
             collaboration, and small meeting rooms. The Agency stated a reasonable design
             reduction from 210 square feet would be 175 square feet per person.

             EPA had conducted space assessments in 2005 and 2007. Given the under-utilized
             space disclosed by the OIG, the Agency needs to further assess utilization of
             GSA-owned and leased facilities and consider relocating staff to reduce under-
             utilized space.

             EPA Needs to Establish Space Guidelines for Support Spaces

             EPA’s normal practice is to make a determination 5 years before a lease expires
             whether the Agency will stay in its current location or put out a request for
             proposals for new space. As part of this process, EPA performs a space
             assessment to determine space requirements. However, EPA’s draft 2011 space
             guidelines do not include specific guidelines for support spaces.

             In a 2005 rent analysis conducted by an EPA contractor, the contractor
             recommended that EPA define and allocate support spaces (training, conference,
             filing rooms, etc.) based on the actual requirements for these spaces. However,
             FMSD performs an overall assessment of space on a case-by-case basis when a
             lease is up for renewal. The Chief of FMSD’s Architecture, Engineering and


                                                                                               8
13-P-0162

             Asset Management Branch explained that during the assessment, support space is
             determined by need at the individual facility. EPA’s July 2004 Space Acquisition
             and Planning Guidelines describe the approximate size and frequency of special
             spaces typically found in EPA facilities. However, EPA’s October 2011 draft
             New Mobile Work Space Design Guidelines focus on workstations and offices.
             It generally describes what should be in the support space but does not include
             specific space allowance guidelines for these spaces. Establishing guidelines,
             analyzing the support space specifically based on need, and determining that it is
             within the established guidelines are essential in determining whether an office is
             sized correctly and fully utilized.

             Limitations on Returning Space to GSA

             EPA is limited in returning marketable space to GSA. EPA’s occupancy
             agreement with GSA allows EPA to return marketable space or terminate a lease
             with 120 days notice. EPA is locked into long-term lease agreements (10 years)
             with GSA unless it can return a marketable space to GSA during the lease.
             Otherwise, EPA must remain in place until the lease expires.

             Other factors related to space configuration impact the ability of EPA to return
             under-utilized space to GSA. For example, EPA Region 3 planned to return an
             entire floor and portions of two others to GSA before abandoning such plans for
             security reasons. The original GSA lease for the EPA Region 3 building required
             space where only government employees could use an elevator bank with access
             to its space. Returning the space would potentially have allowed the general
             public to have access to the elevator bank and EPA space. In addition, FMSD’s
             Chief of the Architecture, Engineering and Asset Management Branch said that
             the Ariel Rios building and the Colorado building in Washington, DC, along with
             the John W. McCormack building in Region 1 (Boston, Massachusetts) are
             historic buildings that have corridors and hallways that cannot be reduced.
             FMSD’s Chief of the Architecture, Engineering and Asset Management Branch
             also stated that there is substantial cost involved when the Agency relocates
             employees for space reduction; if the cost outweighs the benefits, the Agency will
             not implement the space reduction.

EPA Does Not Have a Policy for Determining When Contractors Should
Be On-Site
             EPA houses contractors on-site without determining in advance if they should be
             housed on-site. Our review of 16 GSA-owned/leased facilities determined that
             contractors occupied space in 14 facilities totaling an estimated 197,000 square
             feet of EPA space. However, there is no Agency policy outlining what contractor
             functions are essential to the Agency and require contractors working on-site, and
             program officers are not required to justify the need to house contractors on-site.
             EPA spends at least $5.8 million and up to $9.9 million annually housing



                                                                                               9
13-P-0162

             contractors and a policy is needed to ensure contractors are only housed in EPA
             space when justified.

             EPA Studies and Guidance Address Contractors Being Off-Site

             EPA’s 2009 Rent Efficiencies Report recommended that EPA explore options to
             have contractors located at contractor-provided locations if those contractors are
             deemed “non-mission critical” or not meeting on-site qualifying criteria. Also, the
             EPA Support Service Contracting Guide states that efforts should be taken to
             ensure that contractor employees do not occupy the same space with federal
             employees unless it is required.

             EPA’s Contracts Management Manual, Section 3.2.5, states that program and
             regional offices must identify all contracts where the contractor is working at a
             government facility and evaluate whether this is appropriate and necessary and,
             if not, relocate the place of performance to an off-site location.

             No Policy for Determining On-Site Contractors

             There is no overarching EPA policy regarding housing contractors on-site in EPA
             space. Each region has its own way of determining which contract personnel need
             to be housed in EPA space. Often, it is decided on a contract-by-contract basis.
             The Special Assistant to the Director of the Office of Acquisition Management
             and a senior Region 9 contracting officer confirmed that there is no official EPA
             policy regarding contractor personnel being assigned space within EPA
             owned/leased facilities. The Special Assistant to the Director of the Office of
             Acquisition Management also stated that program officers were not required to
             justify the need to house contractors on-site. Without a policy on what contractors
             should be provided space in EPA facilities, upfront determinations are not made
             on the space that contractors need and EPA may pay for unnecessary contractor
             space.




                                                                                                 10
13-P-0162

             As of February 2012, EPA spent approximately $9.9 million annually housing
             contractors on-site for the 16 sampled facilities (table 5 and appendix C).

             Table 5: Cost of housing contactors on-site at 16 sampled facilities

                                                              No. of           Annual cost for
                      Location and building name            contractors       contractor space
             R 1-John W. McCormack Building                      53                $951,081
             R 2-City View Plaza, Puerto Rico                     -                        -
             R 2-Ted Weiss Federal Building                      79               1,843,653
             R 3-1650 Arch Street                                82                 549,007
             R 5-National Vehicle & Fuel Emissions               36                 300,026
             R 5-Norwood Professional Building                    7                  37,716
             R 5-Ralph H. Metcalfe Federal Building              58                 543,097
             R 6-Fountain Place                                  77                 350,906
             R 7-901 North 5th Street                            11                 123,723
             R 9-75 Hawthorne Street                             59                 640,458
             R 9-Los Angeles Field Office                         3                  33,786
             R 10-Park Place Building                            40                 392,863
                         Subtotal – contractors only           505               $5,766,316
             HQ-Ronald Reagan Building                          1351              2,193,470
             HQ-Ariel Rios Federal Building                     1171              1,784,260
             HQ-1310 L Street                                    511                124,330
             HQ-Colorado Building                                   -                      -
                        Subtotal – contractors and             303               $4,102,060
                        nonfederal personnel
             Total                                              808               $9,868,376
             Source: OIG analysis of data in SLATE and from EPA sampled office facility managers as of
             February 2012:
                 1 Calculation includes contractors as well as Senior Environmental Employment enrollees,
                   and others as FMSD was unable to provide breakdowns.


Conclusion
             EPA can potentially achieve up to $21.6 million in cost savings annually by
             releasing all under-utilized office space for 13 of the 16 sampled facilities
             reviewed. EPA can also potentially save at least $5.8 million and up to
             $9.9 million annually by not housing contractors on-site in 14 of the 16 sampled
             facilities that housed contractors. EPA’s occupancy agreement with GSA allows
             EPA to return space or terminate a lease with 120 days notice if it is marketable.
             However, EPA is locked into 10-year, long-term lease agreements with GSA for
             these office spaces unless it can return a marketable space to GSA during the
             lease, and also faces other obstacles in eliminating under-utilized space.
             Nonetheless, EPA has the potential to achieve savings when office space is
             renovated or relocated, and EPA should continue to pursue reducing under-
             utilized space.




                                                                                                            11
13-P-0162

Recommendations
             We recommend that the Assistant Administrator for Administration and Resources
             Management:

                1. 	 Assess utilization of GSA-owned and leased facilities and relocate staff as
                     warranted to reduce under-utilized space.

                2. 	 Develop space guidelines for support spaces and assess the number and size
                     of support spaces needed at the time of a new or renewal lease.

                3. 	 Require the Office of Acquisition Management, in conjunction with the
                     Office of Administration, to develop and enforce a policy that requires
                     contracting staff ensure approval for on-site contractor personnel is
                     obtained from the responsible office and documented in the contract file.

Agency Response and OIG Evaluation
             The Agency concurred with the findings and recommendations and provided
             milestone dates for the recommendations. The Agency also proposed some
             revised language, which we incorporated where appropriate in the report. The
             Agency’s full response is in appendix D.

             The Agency concurred with recommendation 1 and stated that the Office of
             Administration and Resources Management (OARM) continues to identify
             options throughout program offi.ces and the regions to do work differently in
             support of the June 2010 Presidential Memorandum, Disposing of Unneeded
             Federal Real Estate. To further this initiative and at the direction of the
             Administrator and Chief Financial Officer, OARM is implementing a plan to
             reduce the EPA’s office space by 20 percent at its leased facilities. In
             subsequent discussions, the Agency stated that given the breadth of the
             Agency’s space consolidation project and the unknowns involved, it is difficult
             to provide a meaningful completion date. However, Office of Administration’s
             projected completion date, based on the availability of sufficient funding, is
             December 2022. On December 17, 2012, Craig E. Hooks, Assistant
             Administrator issued a memo to EPA's senior leadership on EPA’s Space
             Redesign Effort. The memo stated that, "To further this effort and at the
             direction of the Administrator and Chief Financial Officer, OARM is
             implementing a plan to reduce the EPA’s office space by 20 percent at our
             leased facilities. The plan is to transform agency work space so that it is more
             efficient, collaborative and technologically sophisticated, and will reduce the
             agency’s physical and environmental footprints. ...This is an ambitious,
             multiyear, agencywide effort for which I am seeking your support as the EPA’s
             senior leaders. It will position the agency to better achieve our mission through
             greater openness and collaboration; enhance the quality of work life in our
             workplace; support the government wide mobile/flexible workplace initiative

                                                                                                 12
13-P-0162

             and reduce our energy and greenhouse gas emissions." We agree with the
             Agency’s corrective action for recommendation 1.

             The Agency concurred with recommendation 2 and stated that OARM will
             revise the October 2011 draft New Mobile Work Space Design Guidelines to
             include support space guidance that will be used for new and renewal leases.
             The corrective action is expected to be completed by December 2013. We agree
             with the Agency’s corrective action for recommendation 2.

             The Agency initially did not concur with recommendation 3 to require the Office
             of Acquisition Management, in conjunction with the Office of Administration, to
             develop and enforce a policy that requires justification for contractor personnel
             to utilize on-site work space at EPA facilities and confirmation of the
             justification by FMSD and regional facility managers. The Agency stated that
             decisions regarding on-site contractors are strictly based on the work being
             performed. Rather than developing and enforcing a policy, OARM believes
             that a more prudent approach would be to require EPA’s contracting staff to
             ensure that approval for on-site contractor performance is obtained from the
             responsible office and documented in the contract file. We agree with the
             Agency’s proposed language for recommendation 3 and have revised it
             accordingly. However, our position remains unchanged for development of a
             policy. During the exit conference, OAM stated that it will establish a work
             group to develop an agency-wide process with associated guidance, for
             consideration for contractor personnel to be housed in on-site, EPA occupied
             work space. EPA expects to have this process in place by September 2013. We
             agree with the Agency’s corrective action for recommendation 3.




                                                                                             13
13-P-0162

                                   Chapter 3

    Personnel and Usable Square Feet Data in SLATE 

                  Not Updated Timely 

             EPA lacks accurate, current, and complete information on the number of
             personnel and usable square feet (USF) in SLATE for its GSA-owned/leased
             offices. As of April 2012, SLATE had incorrect personnel information for 13 of
             the 16 facilities sampled (81 percent), and 5 of 16 facilities sampled (31 percent)
             had incorrect information on USF. SLATE recorded a net 548 more personnel
             than what EPA had working in the sampled facilities and listed a net 235,918
             fewer USF than the sampled facilities had. Additionally, the entire USF of
             325,128 for the Region 5 Ralph H. Metcalfe building was not reported in SLATE;
             it only reported rental square feet in SLATE. This occurred because updates to
             SLATE are sporadic and inconsistent. Inaccurate data in SLATE hamper EPA’s
             ability to make informed decisions for managing its facilities.

SLATE and Its Data Quality and Integrity Important

             The SLATE system describes SLATE as follows:

                    SLATE is a Web-based, comprehensive management and strategic
                    planning system developed for use by those responsible for real
                    property management at EPA. SLATE is designed to maintain and
                    allow viewing of all EPA facilities, including building plans, lease
                    information, photographs, personnel, space and energy usage,
                    budget requests, cost, and construction project tracking.

             SLATE allows a user to submit and maintain facility level data as well as to view,
             create reports on, and print a wide range of facility information. The system tracks
             construction projects from their planning stages through the budget process and
             supports design, construction, and commissioning by maintaining drawings,
             photographs, contracts, work plans, and other supporting project data. SLATE
             also provides space use analyses of EPA buildings and allows EPA to do long-
             term planning for buildings and facilities budgets.

             FMSD’s Standards of Behavior for Strategic Lease and Asset Tracking Enterprise
             (SLATE), Section 2.5, Integrity, states, “Employees shall protect the integrity and
             quality of information.” Section 2.5.1 requires employees to “[r]eview the quality
             of information as it is collected, generated, and used to make sure it is accurate,
             complete and up-to-date.”




                                                                                              14
13-P-0162

Personnel Information in SLATE Not Accurate
              As of April 2012, SLATE had incorrect personnel information for 13 of the 16
              facilities sampled, or 81 percent (table 6). Personnel information is the number of
              employees and other non-federal staff in each facility. Personnel numbers include
              full-time EPA employees, Stay-in-Schools, Senior Environmental Employment
              enrollees, and on-site contractor personnel.

             Table 6: Comparison of personnel information for 16 sampled facilities
                                                                                          Personnel
                                                            Per facility     Per         over/(under)
                   Location and building name               managers        SLATE    in SLATE       %
              HQ–Ariel Rios Federal Building                    1,649        1,649             -         -
              HQ–1310 L Street                                    500          570           70      14%
              HQ–Ronald Reagan Building                         1,137        1,137             -         -
              HQ–Colorado Building                                 17           20            3      18%
              R 1–John W. McCormack Building                      697          845         148       21%
              R 2–Ted Weiss Federal Building                      851          851             -         -
              R 2–City View Plaza, Puerto Rico                     63           60          (3)      (5%)
              R 3–1650 Arch Street                              1,084        1,133           49        5%
              R 5–Ralph H. Metcalfe Federal Building            1,390        1,558         168       12%
              R 5–National Vehicle & Fuel Emissions               282          235         (47)    (17%)
              R 5–Norwood Professional Building                   115           85         (30)    (26%)
              R 6–Fountain Place                                1,084        1,052         (32)      (3%)
              R 7–901 North 5th Street                            631          700           69      11%
              R 9–75 Hawthorne Street                             987        1,160         173       18%
              R 9–Los Angeles Field Office                         29           25          (4)    (14%)
              R 10–Park Place Building                            685          669         (16)      (2%)
              Total                                           11,201        11,749         548     4.89%
              % of facilities not updated in SLATE                                                81.25%
             Source: Data from SLATE and facility managers as of April 13, 2012.

              FMSD does not require facility managers to update personnel information on a
              systematic or regular basis and there is no quality assurance or verification of this
              data in SLATE. The Chief of FMSD’s Architecture, Engineering and Asset
              Management Branch stated that personnel information is entered into SLATE at
              the time the Occupancy Agreement/Lease is signed with GSA, and it is only
              updated when an office is realigned or is in the process of being moved or
              relocated. In addition, the FMSD SLATE project manager said that FMSD does
              not track personnel numbers in SLATE because it is a “moving target.” Further,
              facility managers determine personnel numbers in a variety of different ways,
              including:

                      Information Services Information System–regionally developed system
                      Systematic basis when in the process of a move
                      Employee directory database
                      Roster database


                                                                                                      15
13-P-0162

USF Information in SLATE Not Accurate
              As of April 2012, SLATE had incorrect USF information for 5 of the 16 facilities
              sampled, or 31 percent (table 7).

             Table 7: Comparison of USF information for 16 sampled facilities
                                                                                      USF over/(under)
                                                            USF per     USF per         in
                    Location and building name               FMSD        SLATE       SLATE         %
              HQ–Ariel Rios Federal Building                  446,324     446,324            -          -
              HQ–1310 L Street                                123,279     135,901      12,622        10%
              HQ–Ronald Reagan Building                       230,664     230,664            -          -
              HQ–Colorado Building                              9,667       9,667            -          -
              R 1–John W. McCormack Building                  224,261     224,261            -          -
              R 2–Ted Weiss Federal Building                  243,057     269,834      26,777        11%
              R 2–City View Plaza, Puerto Rico                 19,700      19,700            -          -
              R 3–1650 Arch Street                            268,968     268,968            -          -
              R 5–Ralph H. Metcalfe Federal Building          325,128           -    (325,128)    (100%)
              R 5–National Vehicle & Fuel Emissions            59,100      59,100            -          -
              R 5–Norwood Professional Building                28,594      28,594            -          -
              R 6–Fountain Place                              239,130     239,130            -          -
              R 7–901 North 5th Street                        182,554     182,554            -          -
              R 9–75 Hawthorne Street                         204,014     253,919      49,905        24%
              R 9–Los Angeles Field Office                     13,907      13,813         (94)      (1%)
              R 10–Park Place Building                        154,006     154,006            -          -
              Total                                         2,772,353   2,536,435   (235,918)    (8.51%)
              % of facilities not updated in SLATE                                               31.25%
             Source: FMSD and SLATE as of April 13, 2012.

              Similar to SLATE’s personnel information, the Chief of FMSD’s Architecture,
              Engineering and Asset Management Branch said that USF information is entered
              into SLATE at the time the Occupancy Agreement/Lease is signed with GSA, and
              there is no quality assurance or verification of this data in SLATE. In addition,
              this information is updated only when the lease is renewed or when EPA gives up
              space. FMSD provided the following examples of where USF was not updated in
              SLATE:

                     San Francisco office—It was under a third lease extension due to the
                      design/construction for a succeeding lease.
                     Los Angeles field office—A reduction in space is planned, and the realty
                      specialist was waiting for information on the reduction’s scope.
                     New York office—It was not updated as GSA re-measured the building.
                     1310 L Street building at HQ, and Chicago facilities—It was not timely
                      updated due to an inadvertent oversight.

              Accurate information on personnel and USF is a key component in determining
              under-utilized office space and in determining office requirements when an office
              space is realigned or relocated. For our calculation of under-utilized space for our
              16 sampled offices, we had to obtain the updated personnel information for the

                                                                                                   16

13-P-0162

             audit from the regional facility managers of the 16 sampled facilities and updated
             information on USF from the Chief of FMSD’s Architecture, Engineering and
             Asset Management Branch. Inaccurate personnel and USF data in SLATE on
             GSA-owned/leased offices hampers EPA’s ability to make informed decisions for
             managing its facilities.

Number of Facilities in SLATE Not Accurate
             As of April 2012, information in SLATE showed 172 EPA facilities but showed
             one of those facilities as a “Nationwide” facility with no data. This should not be
             considered a facility for listing purposes. Another line item, “La Plaza Building
             (Off Campus Facilities),” in Region 9, was a duplicate entry; it was a summary of
             five offices also listed. These two line items should not be listed in SLATE, and
             the total number of facilities in SLATE should have only been 170.

Conclusion
             EPA lacks sufficiently accurate, complete, and up-to-date information on the
             number of personnel and USF in SLATE for its GSA-owned/leased offices. If this
             information is not updated on a systematic basis, EPA’s ability to make informed
             decisions for managing its facilities is hampered.

Recommendations
             We recommend that the Assistant Administrator for Administration and Resources
             Management:

                4. 	 Require that personnel information be consistently tracked and updated in
                     EPA’s designated real property management system on an annual basis or
                     more often if needed.

                5.	 Require FMSD to update USF information whenever a change in office
                    space is made.

Agency Response and OIG Evaluation

             The Agency concurred with the findings and recommendations, and provided
             milestone dates for the proposed corrective actions. The Agency’s full response is
             in appendix D.

             The Agency concurred with recommendation 4 and stated that OARM is
             developing a process whereby facility mangers will be required to update
             personnel data in the designated real property asset management system.
             SLATE is no longer an active system. FMSD staff will provide oversight to
             ensure updates are provided. T h e corrective action is expected to be


                                                                                              17
13-P-0162

             completed by December 2013. We agree with the Agency’s corrective action
             for recommendation 4.

             The Agency concurred with recommendation 5 and stated that OARM has an
             internal policy to update the usable square feet of any agency facility once the
             EPA assumes or releases occupancy of space. F acility managers will update
             the usable square feet which will be audited by FMSD staff. The corrective
             action is expected to be completed by December 2013. We agree with the
             Agency’s corrective action for recommendation 5.




                                                                                            18
13-P-0162

                                  Status of Recommendations and 

                                    Potential Monetary Benefits 



                                                                                                                                POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1        Action Official             Date      Amount      Amount

     1       12     Assess utilization of GSA-owned and leased               O       Assistant Administrator for   December
                    facilities and relocate staff as warranted to reduce                Administration and           2022
                    under-utilized space.                                             Resources Management

     2       12     Develop space guidelines for support spaces and          O       Assistant Administrator for   December
                    assess the number and size of support spaces                        Administration and           2013
                    needed at the time of a new or renewal lease.                     Resources Management

     3       12     Require the Office of Acquisition Management, in         O       Assistant Administrator for   September
                    conjunction with the Office of Administration, to                   Administration and           2013
                    develop and enforce a policy that requires                        Resources Management
                    contracting staff ensure approval for on-site
                    contractor personnel is obtained from the
                    responsible office and documented in the contract
                    file.

     4       17     Require that personnel information be consistently       O       Assistant Administrator for   December
                    tracked and updated in EPA’s designated real                        Administration and           2013
                    property management system on an annual basis                     Resources Management
                    or more often if needed.

     5       17     Require FMSD to update USF information                   O       Assistant Administrator for   December
                    whenever a change in office space is made.                          Administration and           2013
                                                                                      Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




                                                                                                                                                  19
13-P-0162

                                                                                   Appendix A

                 Details on Scope and Methodology
We reviewed EPA’s Metropolitan Architects and Planners contract for information on EPA
contract space reduction activities. We also reviewed EPA’s Asset Management Plan, EPA’s
Real Property Cost Savings and Innovation Plan, EPA’s Space Acquisition and Planning
Guidelines, and draft Mobile Work Space Design Guidelines, to determine EPA’s criteria and
methodology for managing space and identifying and realizing real property cost savings.

We reviewed space consolidation efforts such as the 2009 EPA Rent Efficiencies Report, EPA’s
master rent avoidance charts, and the Metropolitan Architects and Planners’ October 2005 final
report US EPA Nationwide Rent Analysis. We verified EPA’s rental space and cost reduction
accomplished to its records. We verified GSA’s Rent-On-Web annual operating costs in SLATE
to billings in GSA’s Rent-On-Web website. We also obtained updated head counts from regional
facility managers and USF from FMSD.

We reviewed fiscal years 2010 and 2011 Integrity Act Annual Assurance Letters for EPA’s
OARM and Office of the Administrator to determine whether those letters identified any
weaknesses related to property and space reduction. The letters did not identify such weaknesses.

Methodology to Select Sample and Calculate Cost Savings

To select a sample of EPA facilities for review, we:

   	 Obtained a listing of facilities in SLATE. We determined that there were 170 facilities
      that EPA used as of November 2011 at an annual operating cost of approximately
      $279 million.
   	 Analyzed the 170 EPA facilities. We excluded laboratories because, in July 2011, the
      U.S. Government Accountability Office reviewed laboratories that mainly consisted of
      EPA-owned facilities. We also excluded warehouses, parking spaces, storage rooms, and
      child care facilities because they had low annual costs. We used the remaining 92
      owned/leased and EPA special use offices for the audit universe. These facilities have
      total annual operating costs of approximately $206 million, which is approximately
      74 percent of the annual operating cost of the 170 facilities.
   	 Using GSA’s recommended federal benchmark of 190 USF per person, selected sample
      offices for review that had a potential annual cost savings of over $225,000. This came to
      16 offices with total operating costs of approximately $135 million and potential annual
      savings of $31.8 million.
   	 Calculated under/over-utilized space for the 16 sampled offices based on EPA’s internal
      standard of 210 USF per person and GSA’s federal benchmark of 190 USF per person
      (appendix B).




                                                                                              20
13-P-0162

To calculate potential cost savings, we:

      Divided office USF by number of personnel and compared it to the EPA rate of 210 per
       person, thus arriving at under-utilized USF per person.
      Multiplied under-utilized USF per person by number of personnel to arrive at total under-
       utilized USF for the building.
      Divided annual operating cost by office USF to arrive at operating cost per USF.
      Multiplied total under-utilized USF for the building by annual operating cost per USF to
       arrive at potential cost savings.

Prior Reports

In January 2009, the OIG issued Report No. 09-P-0080, Congressionally Requested Report on
EPA Staffing Levels and Total Costs for EPA Facilities. This report provided Congress with
information on staffing levels, rental/lease fees, and utility and security costs for all EPA
facilities and locations where EPA incurred employee-associated costs.

We reviewed the U.S. Government Accountability Office’s July 2011 Report No. GAO-11-347,
To Better Fulfill Its Mission, EPA Needs a More Coordinated Approach to Managing its
Laboratories, to determine whether EPA laboratories should be included in our audit. As a result
of that report, we decided to exclude laboratories.




                                                                                                21
13-P-0162

                                                                                                              Appendix B

                       Calculations for Under-Utilized Space and
                        Excess Cost for 16 Sampled Facilities
                                             Using EPA’s 210 USF per person
                                                                     Under-       Total                                   Excess
                                                         Current     utilized    under-        Annual operating           annual
      Location and                                                               utilized                    cost        operating
     building name                USF        Personnel    USF per person          USF           cost      per USF          cost
HQ-Ariel Rios Building            446,324        1,649      271        61        100,589     $25,130,427     $56.31      $5,664,167
R 2-Ted Weiss Building            243,057          851        286          76     64,676      19,824,229       81.56       5,274,975
R 1-John W. McCormack             224,261          697        322        112      78,064      12,497,786       55.73       4,350,507
R 7-901 North 5th Street          182,554          631        289          79     49,849         7,110,492     38.95       1,941,619
R 5-Ralph H. Metcalfe             325,128        1390         234          24     33,360      13,023,915       40.06       1,336,402
R 3-1650 Arch Street              268,968        1,084        248          38     41,192         7,262,002     27.00       1,112,184
R 10-Park Place Building          154,006          685        225          15     10,275         6,727,108     43.68           448,812
R 2-City View Plaza, PR            19,700           63        313        103       6,489         1,193,687     60.59           393,169
HQ-Colorado Building                9,667           17        569        359       6,103          547,545      56.64           345,674
R 6-Fountain Place                239,130        1,084        221          11     11,924         4,928,459     20.61           245,754
R 9-Los Angeles Field Off          13,907           29        480        270       7,830          326,437      23.47           183,770
HQ-310 L Street                   123,279          500        247          37     18,500         1,216,534      9.87           182,595
R 5-Norwood Prof. Building         28,594          115        249          39      4,485          618,300      21.62            96,966
                           1
R 5-Nat'l Vehicle & Fuel           59,100          282        210     Utilized          -        2,345,783     39.69                  -
                            2
R 9-75 Hawthorne Street           204,014          987        207     Utilized          -     10,692,122       52.41                  -
                       3
HQ-Reagan Building                230,664        1,137     203        Utilized          -     18,463,553        80.05                 -
                  Total          2,772,353      11,201                           433,336     $31,908,379                $21,576,594

Source: Source: OIG analysis of EPA data provided by FMSD and regional facility managers.
        1 Due to using 210 USF and increased personnel head count, the audit result disclosed that it is utilized. 

        2 Due to using 210 USF and decreased USF and personnel head count, the audit result disclosed that it is utilized. 

        3 Due to using 210 USF, the audit result disclosed that it is utilized.



   Descriptions for above table

                           Column description                                Calculation formula
    Usable square feet (USF)                                        Provided by FMSD
    Personnel                                                       Provided by regional facility managers
    Current USF per person                                          Usable square feet divided by personnel
    Under-utilized USF per person                                   Current USF per person minus 210 USF
    Total under-utilized USF                                        Under-utilized USF per person times personnel
    Annual operating cost                                           Obtained from SLATE as of 2/1/2012
    Annual operating cost per USF                                   Annual cost divided by USF
    Excess annual operating cost due to total under-utilized USF    Annual operating cost per USF times total under-utilized USF



                                                                                                                          22
        13-P-0162
                                             Using 190 USF per person
                                                                Net usable                                       Under/(over)
                                                                   plus                             USF            utilized
                                                                circulation
        Location and building name                USF           square feet       Personnel                   Per person
HQ–Colorado Building                                9,667               6,434                 17       378                    188
R 2–Ted Weiss Federal Building                    243,057            187,542                 851       220                      30
HQ–Ariel Rios Federal Building                    446,324            330,888             1,649         201                     11
R 1–John W. McCormack Building                    224,261            128,250                 697       184                     (6)
R 5–Ralph H. Metcalfe Federal Building            325,128            224,855             1,390         162                    (28)
R 7–901 North 5th Street                          182,554            110,668                 631       175                    (15)
HQ–1310 L Street                                  123,279              87,635                500       175                    (15)
R 3–650 Arch Street                               268,968            185,282             1,084         171                    (19)
R 9–75 Hawthorne Street                           204,014            146,321                 987       148                    (42)
R 6–Fountain Place                                239,130            155,253             1,084         143                    (47)
HQ–Ronald Reagan Building                         230,664            167,536             1,137         147                    (43)
R 10–Park Place Building                          154,006              93,788                685       137                    (53)
                                                              Information not
R 2–City View Plaza, Puerto Rico                   19,700                                    63        N/A                    N/A
                                                                  provided
                                                              Information not
R 5–National Vehicle & Fuel Emissions              59,100                                    282       N/A                    N/A
                                                                  provided
                                                              Information not
R 5–Norwood Professional Building                  28,594                                    115       N/A                    N/A
                                                                  provided
                                                              Information not
R 9–Los Angeles Field Office                       13,907                                    29        N/A                    N/A
                                                                  provided
Total                                            2,772,353                             11,201
Source: Data provide by FMSD and facility managers as of February 2012.


  Descriptions for above table
                    Column description                                          Calculation and Source
   Usable square feet                                        Provided by FMSD
   Net usable plus circulation square feet                   Offices, cubicles, conference rooms, and hallways
   Personnel                                                 Provided by facility managers
   USF per person                                            Net use plus circulation square feet divided by personnel
   Under/(over) utilized at 190 USF per person               USF per person minus 190




                                                                                                                         23
     13-P-0162
                                                                                                                    Appendix C

                              Cost of Housing Contractors On-Site
                                    at 16 Sampled Facilities
                                                                                            % of
                                                           Current    No of      USF for    USF for           Annual operating
 Location and building                                     USF per                                                       cost for
          name                   USF           Personnel   person                contractors                cost       contractors
 R 1-John W. McCormack           224,261             697        322    53         17,066        7.61%      12,497,786        951,081
 R 2-Ted Weiss Building          243,057             851       286     79         22,594        9.30%      19,824,229      1,843,653
 R 2-City View Plaza, PR              19,700          63        313      -              -       0.00%       1,193,687               -
 R 3-1650 Arch Street            268,968           1,084       248     82         20,336        7.56%       7,262,002         549,007
 R 5-Ralph H. Metcalfe           325,128            1390        234    58         13,572       4.17%       13,023,915         543,097
 R 5-Nat'l Vehicle & Fuel             59,100         282        210    36          7,560       12.79%       2,345,783         300,026
 R 5-Norwood Prof. Building           28,594         115        249     7          1,743        6.10%        618,300           37,716
 R 6-Fountain Place              239,130           1,084       221     77         17,017        7.12%       4,928,459         350,906
 R 7-901 North 5th Street        182,554             631       289     11          3,179        1.74%       7,110,492         123,723
 R 9-75 Hawthorne Street         204,014             987       207     59         12,213        5.99%      10,692,122         640,458
 R 9-Los Angeles Field Off            13,907          29       480      3          1,440       10.35%        326,437           33,786
 R 10-Park Place Building        154,006             685       225     40          9,000        5.84%       6,727,108         392,863
  Subtotal - contractors       1,962,419           7,898               505       125,720                   86,550,320     5,766,316
  only
 HQ-Reagan Building*             230,664           1,137        203    135 1      27,405       11.88%      18,463,553      2,193,470
                                                                             1
 HQ-Ariel Rios Building          446,324           1,649        271    117        31,707       7.10%    $ 25,130,427       1,784,260
 HQ-1310 L Street*               123,279             500        247     51 1      12,597       10.22%       1,216,534         124,330
 HQ-Colorado Building                  9,667          17        569      -              -       0.00%        547,545                -
   Subtotal – contractors &      809,934           3,303               303        71,709                   45,358,059   $ 4,102,060
   nonfederal personnel
            Total              2,772,353          11,201              808        197,429                $131,908,379     $ 9,868,376

Source: OIG analysis of data in SLATE and from EPA sampled office facility managers as of February 2012.

    1 Calculation includes contractors as well as Senior Environmental Employment enrollees and others as FMSD was unable to
      provide breakdowns.

                Descriptions for above table
                                Column description                               Calculation formula
                 Current USF per person                       USF divided by personnel
                 No. of contractors                           Provided by facility managers
                 USF for contractors                          Current USF per person times number of contractors
                 % of USF for contractors                     USF for contractors divided by USF
                 Annual operating cost                        Obtained from SLATE as of 2/1/2012
                 Annual cost for contractors                  Annual operating cost times percentage of contractors




                                                                                                                         24
         13-P-0162
                                                                                          Appendix D

                  Agency Response to Draft Report




 Thank you for the opportunity to review and comment on the draft report (Project No. OA-
 FY12-0056), dated October 4, 2012. In the attachment we are providing clarification of three
 issues pertaining to factual accuracy and a discussion regarding our concurrence or
 nonconcurrence with your five proposed recommendations.

 If you have any questions pertaining to this response, please contact Renee Page, Director,
 Office of Administration, at (202) 564-8400.



 Attachment

 cc: Renee Page




                                                                                                25

13-P-0162

                  Office of Administration and R esources Management

                  Response to Draft R eport: Project No. OA-FY12-0056

                   EPA Can Further Reduce Space in Under-Utilized Facilities

 Issues pertaining to factual accuracy

 Report language in Executive Summary and on page 12: ''EPA omitted reporting in SLATE
 an entire Region 5 building (325,128 USF)."
         According to the methodology on page 17, you obtained a listing of facilities in
         SLATE as of November 2011, and determined that the Ralph H. Metcalfe Federal
         Building was not included. This is an incorrect conclusion. An April28, 2011,
         SLATE report already included the building in the inventory.

 Report language on page 11: "Both GSA and EPA recognize that the average office
 space can be reduced to 60 square feet in upcoming years."
        The referenced document containing the GSA's 60 square foot number is the
        GSA's July 2011 report, Workspace Utilizationand Allocation Benchmark, as indicated
        on page 4 of the draft. This GSA document hypothesises that the 60 square feet
        could be achieved only through extensive use of alternative workspace
        arrangements, such as hoteling, home office and teleworking on a fulltime basis.
        The EPA's current policy limits telework to no more than two days per week and
        would therefore have to be modified. Such a significant change has already been
        the subject of extensive negotiation and delay. Hence, at this time, the EPA does
        not recognize that the average office space can be reduced to 60 square feet in
        upcoming years.”

 Report language on page 8: “Also, EPA's 2011 draft New Mobile Work Space Design Guidelines
 require a typical work station to be up to 60 USF and a telework station up to 30 USF per
 person; both are substantial space reductions from the 210 USF per person used in our
 analysis.”
        The guideline numbers of 60 and 30 USF are not considered reductions from the
        210 square feet per person number, which incorporates required space outside the
        actual workstation for circulation, filing, conferencing, collaboration and small
        meeting rooms. A reasonable design reduction from 210 square feet would be 175
        square feet per person.

 Comments pertaining to concurrence or nonconcurrence with proposed recommendations

 Chapter 2 -"EPA Can Further Strive for Space Reduction"
    1. 	 Assess utilization of GSA-owned and leased facilities and relocate staff as 

         warranted to reduce under-utilized space.


       OARM response: Concur        Anticipated completion - ongoing

        The EPA's space consolidation efforts have been ongoing since 2007. OARM
        continues to identify options throughout program offi.ces and the regions to do

                                                                                              26
13-P-0162

        work differently in support of the June 2010 Presidential Memorandum, Disposing
        of Unneeded Federal Real Estate. To further this initiative and at the direction of the
        Administrator and Chief Financial Officer, OARM is implementing a plan to
        reduce the EPA's office space by 20 percent at its leased facilities. The redesign
        plan has already been implemented in the new Kansas City Regional Office and
        plans are underway to incorporate collaboration, greater mobility and advanced
        technology into the design of the new Region 9 offices. In Headquarters, several
        pilot projects are in development that will also demonstrate open design principles.
        In addition, we are in the process of relocating two offices within the Office of the
        Administrator that will release more than 19,000 square feet of leased office space
        and realize almost $1M in annual rent avoidance beginning in FY2013.

    2. 	Develop space guidelines for support spaces and assess the number and size of
        support spaces needed at the time of a new or renewal lease.

        OARM response: Concur                Anticipated completion - December 2013

        The agency has guidance per the July 2004 Space Acquisition and Planning
        Guidelines that describe the approximate size and frequency of special spaces
        typically found at EPA facilities. OARM will revise the October 2011 draft New
        Mobile Work Space Design Guidelines to include support space guidance that will be
        used for new and renewal leases.

    3.	 Require the Office of Acquisition Management, in conjunction with the Office of
        Administration, to develop and enforce a policy that requires justification for
        contractor personnel to utilize on-site work space at EPA facilities and
        confirmation of the justification by FMSD and regional facility managers.

        OARM response:       Does Not Concur

        Decisions regarding on-site contractors are strictly based on the work being
        performed. Rather than developing and enforcing a policy, OARM believes that a
        more prudent approach would be to require the EPA's contracting staff to ensure that
        approval for on-site contractor performance is obtained from the responsible office
        and documented in the contract file.

 Chapter 3 "Personnel and Usable Square Feet Data in SLATE Not Updated Timely"

    4. 	Require that personnel information be consistently tracked and updated in
        EPA's designated real property management system and SLATE on an
        annual basis or more often if needed.

        OARM response: Concur                Anticipated completion - December 2013

        OARM is developing a process whereby facility mangers will be required to
        update personnel data in the designated real asset management system. Facilities

                                                                                                  27
13-P-0162

        Management and Services Division staff will provide oversight to ensure updates
        are provided. SLATE is no longer an active system.

    5. 	Require FMSD to update USF information whenever a change in the office
        space is made.

        OARM response: Concur              Anticipated completion - December 2013

        OARM has an internal policy to update the usable square feet of any agency facility
        once the EPA assumes or releases occupancy of space. As noted in the response to
        recommendation 4 above, facility managers will update the usable square feet which
        will be audited by FMSD staff.




                                                                                          28
13-P-0162

                                                                              Appendix E


                                   Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Director, Office of Acquisition Management, Office of Administration and Resources Management
Director Office of Administration, Office of Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Administration and Resources Management




                                                                                        29
13-P-0162

